SUPREME COURT OF THE UNITED STATES
No. 20■X

AHMED ALI MUTHANA,
Petitioner,
v.
ANTONY J. BLINKEN, et al.
Respondents.
■X

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 8,205 words,
excluding the parts of the document that are exempted
by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on this 16th day of June 2021.

Sworn to and subscribed before me
16th day of June 2021.

MARIA MAISONET
Notary Public State of New York
No. 01MA6204360
Qualified in Queens County
Commission Expires Apr. 20, 2025

Julian Hadiz

